HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02655)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02655)
December 5, 2002
Complete
Text of Report is available in PDF format (435 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Regulations require that when multiple services are provided in the same operative
session, the highest paying procedure is reimbursable at the full payment rate
while the other procedures are reimbursable at one-half the normal payment rate.
Our analysis showed that First Coast Service Options, Inc.s systems failed
to identify such instances, which resulted in provider overpayments for calendar
years 1999 through 2001of approximately $112,979, $121,123, and  $140,805
($374,907), respectively.  Included in the identified overpayments is approximately
$75,124 in beneficiary overpayments for coinsurance.  Most of the overpayments
occurred because the carriers processing system did not identify multiple procedures
performed during the same session when submitted on separate claims.